Audit of USAID-Financed Public Law 480
Title II Food Aid Activities in India

Audit Report No. 5-386-02-003-P

August 29, 2002




                  Manila, Philippines
__________________________________________________________________________________________________________________________________________________________________________________________________




                                           Regional Inspector General, Manila


                                           August 29, 2002

                                           MEMORANDUM
                                           FOR:                        Mission Director, USAID/India, Walter E. North

                                           FROM:                       RIG/Manila, Bruce N. Boyer /s/

                                           SUBJECT:                    Audit of USAID-Financed Public Law 480 Title II Food Aid
                                                                       Activities in India, Report No. 5-386-02-003-P

                                           This is our final report on the subject audit. We reviewed your comments to
                                           the draft report, made some revisions based on them, and included the
                                           comments (without attachments) in their entirety as Appendix II.

                                           This report includes five recommendations to be addressed by USAID/India.
                                           Based on your comments to the draft report, we consider management
                                           decisions to have been made on four of the five recommendations, and
                                           Recommendation Nos. 1, 4 and 5 are considered closed upon issuance of this
                                           report. Recommendation No. 3 may be closed when the Mission provides
                                           evidence to the Bureau for Management, Office of Management Planning and
                                           Innovation that it has implemented the necessary actions. A management
                                           decision for Recommendation No. 2 has not yet been reached.

                                           I appreciate the cooperation and courtesies extended to my staff during the
                                           audit.




                                                                                                                                                                                               1
 __________________________________________________________________________________________________________________________________________________________________________________________________




Table of                                    Summary of Results                                                                                                                3
Contents
                                            Background                                                                                                                        3

                                            Audit Objective                                                                                                                    4

                                            Audit Findings

                                                          Did USAID/India, together with its partners, monitor                                                               5
                                                          the food aid to help ensure that it reached the intended
                                                          beneficiaries?

                                                                        Need to Strengthen Monitoring                                                                        6
                                                                        in the Areas of Food Storage and Record
                                                                        Keeping

                                                                        Need to Resolve with the                                                                             10
                                                                        Government of India the Issue of
                                                                        Genetically Modified Title II Food

                                            Management Comments and Our Evaluation                                                                                            12

                                            Appendix I - Scope and Methodology                                                                                                15

                                            Appendix II – Management Comments                                                                                                  18

                                            Appendix III – Food Distribution Chain Flowchart                                                                                  25

                                            Appendix IV – Exceptions Encountered During Site Visits                                                                           26

                                            Appendix V – List of Acronyms Used in the Report                                                                                  29

                                            Appendix VI –CARE and CRS                                                                                                         30

                                            Appendix VII – Recognition                                                                                                         33




                                                                                                                                                                                                2
 __________________________________________________________________________________________________________________________________________________________________________________________________




Summary                                   The Regional Inspector General, Manila, audited food aid to India to determine
of Results                                whether USAID/India, together with its partners, monitored such food aid to help
                                          ensure that it reached the intended beneficiaries.

                                          USAID/India, together with its partners, generally monitored food aid to help
                                          ensure that it reached the intended beneficiaries. However, the audit identified
                                          certain opportunities to improve monitoring of food aid (see pages 6-10). In
                                          addition, the Mission needs to resolve with the Government of India (GOI) the
                                          issue of the use of genetically modified food – an issue which has resulted in
                                          some food aid being detained in port warehouses for over six months, with
                                          storage and other charges in excess of $250,000 (see pages 10-12).




 Background                                 According to USAID documents, one-third of India’s one billion people lack
                                            adequate food. More than half of India’s young children (73 million) are
                                            underweight. One of every eleven children dies before the age of five. In
                                            addition, chronic malnutrition is high. These are a few of the challenges being
                                            addressed by Public Law 480 (P. L. 480) Title II food assistance in India.

                                            Public Law 480 is the Agricultural Trade Development and Assistance Act of
                                            1954 as amended. The P. L. 480 food aid program is comprised of three “titles,”
                                            each of which has different objectives and provides agricultural assistance to
                                            countries at different levels of economic development. Title II programs are
                                            managed by USAID. In India these programs are being implemented by two
                                            major cooperating sponsors: the Cooperative for Assistance and Relief
                                            Everywhere (CARE) and Catholic Relief Services (CRS), two U. S. Private
                                            Voluntary Organizations. These programs in India include development
                                            programs, emergency programs, and assistance to the World Food Program, a
                                            United Nations Agency. The audit covered the development and emergency
                                            programs but not Title II commodities used by The World Food Program. (See
                                            acronyms used in this report, and acknowledgements, at appendices V and VII
                                            respectively.)

                                            USAID/India uses Title II food aid along with other sources of funding under its
                                            “Improved Child Survival and Nutrition in Selected Areas of India” strategic
                                            objective. The purpose of this strategic objective is to reduce the high levels of
                                            child mortality and malnutrition. Title II food assistance to India consists of soy
                                            oil, corn soy blend and bulgur wheat, assistance valued at approximately $117
                                            million in fiscal year 2000 and $78 million in fiscal year 2001 (see graph
                                            below).1

                                            1
                                                Information was provided by USAID and is unaudited.



                                                                                                                                                                                                3
 __________________________________________________________________________________________________________________________________________________________________________________________________




                                                                    Title II Food Aid Funding in India
                                                                                              (in millions of dollars)


                                                   $ 80
                                                       70
                                                       60
                                                       50
                                                                                                                                                                CARE
                                                       40                                                                                                       CRS
                                                       30                                                                                                       WFP
                                                       20
                                                       10
                                                         0
                                                                                    FY 2000                                   FY 2001


                                                          This graph illustrates the funding used by CARE, Catholic Relief
                                                          Services and the World Food Program in fiscal years 2000 and 2001 to
                                                          operate the Title II Program in India. (See additional discussion of
                                                          CARE and CRS at appendices III and VI.) These funds total $117
                                                          million and $78 million, respectively, for the two years. (amounts
                                                          unaudited)




Audit Objective                             As part of its fiscal year 2002 audit plan, the Regional Inspector General,
                                            Manila, audited USAID/India’s Public Law 480 Title II food activities to answer
                                            the following audit objective:

                                                   •      Did USAID/India, together with its partners, monitor the food aid to help
                                                          ensure that it reached the intended beneficiaries?

                                            Appendix I contains a complete discussion of the scope and methodology for
                                            this audit.




                                                                                                                                                                                                4
__________________________________________________________________________________________________________________________________________________________________________________________________




Audit Findings                             Did USAID/India, together with its partners, monitor the food aid to help
                                           ensure that it reached the intended beneficiaries?

                                           USAID/India, together with its partners, generally monitored food aid to help
                                           ensure that it reached intended beneficiaries. However, the audit identified
                                           certain opportunities to improve monitoring. In addition, the Mission needs to
                                           resolve with the Government of India the issue of the use of genetically modified
                                           Title II food – an issue that has resulted in some food aid being detained in port
                                           warehouses and in significant storage and other charges.

                                           Testing at a large number of sites managed by CARE and Catholic Relief
                                           Services (CRS) indicated that food aid was generally monitored according to
                                           guidance. In order to help ensure that food aid reached intended beneficiaries,
                                           the Mission team conducted feeding site visits, reviewing about 50 CARE
                                           sites and about 20 CRS sites annually. Team members wrote reports on their
                                           visits, documenting exceptions and making recommendations. In addition,
                                           CARE and CRS prepared required commodity monitoring plans for food aid
                                           and established their own monitoring systems. Further, CARE and CRS
                                           generally ensured proper storage of commodities and performed periodic
                                           physical counts of commodities. CARE and CRS submitted required periodic
                                           reports (e.g., commodity status, recipient status, and commodity loss reports).
                                           Moreover, both cooperating sponsors regularly performed field reviews of
                                           storage and distribution sites to provide oversight of program operations.




                                                                                                                                                                                               5
__________________________________________________________________________________________________________________________________________________________________________________________________




                                                            This photo shows a sign at a feeding center that distributes Title II
                                                          foods in India. The sign, written in Hindi and English, states that the
                                                          foods are donated by the people of America. (Piparia Singipur, Uttar
                                                                              Pradesh, India, March 2002)

                                           However, monitoring can still be improved, especially in the areas of food
                                           storage and record keeping. In addition, the Mission needs to resolve with the
                                           Government of India the issue of genetically modified Title II food. These
                                           issues are discussed below.

                                           Need to Strengthen Monitoring
                                           in the Areas of Food Storage and Record Keeping

                                           Audit fieldwork at CARE and CRS identified some opportunities to
                                           strengthen the monitoring of the food aid program. USAID Regulation 11 and
                                           the CARE and CRS operating manuals discuss policies and procedures for
                                           commodity storage and record keeping. The exceptions noted during the audit
                                           were typically caused by employees’ lack of familiarity with the policies and
                                           procedures, employees’ limited education levels, and difficulties with
                                           computer programs. These exceptions can result in loss of commodities and
                                           inaccurate reporting regarding commodities and recipients.

                                           Testing at CARE and CRS identified some opportunities to strengthen the
                                           monitoring of the food aid program, particularly regarding commodity storage
                                           and record keeping. Of 19 storage sites visited, 5 had one or more commodity



                                                                                                                                                                                               6
__________________________________________________________________________________________________________________________________________________________________________________________________




                                           storage exceptions. For example, commodities were sometimes stored on
                                           plastic sheets on dirt floors, rather than on pallets. In addition, of the 25 sites
                                           visited that maintain food aid records, 15 sites had one or more exceptions
                                           regarding record keeping. Examples of record keeping problems included
                                           beneficiary feeding registers with inaccurate beneficiary ages, and regional
                                           accounting reports that contained information that did not agree with
                                           supporting documents at the local distribution sites.

                                           The following examples will give the reader an indication of the types and
                                           variety of exceptions found – some of which go beyond storage and record
                                           keeping problems.

                                           •      One of the three CARE state offices visited was unable to provide a
                                                  complete list of its feeding sites – records which would be required in
                                                  order to report on food distribution per USAID’s Regulation 11.

                                           •      One of the two CARE feeding sites that repackaged take-home rations
                                                  included an instructional insert in the local language which did not
                                                  mention that the food was donated by the United States – a Regulation 11
                                                  requirement.

                                           •      One of the four CRS storage facilities visited had bags of bulgur wheat
                                                  stored on plastic sheeting on a dirt floor; the CRS Counterpart Manual
                                                  requires brick or concrete flooring and wooden pallets.

                                           •      One of the seven feeding sites visited was using oil that had been
                                                  contaminated by ants; the CARE Operating Manual discusses storage and
                                                  handling and offers advice on how to deal with insect infestations.

                                           (See Appendix IV for a complete list of all the exceptions encountered and the
                                           related criteria.)




                                                                                                                                                                                               7
__________________________________________________________________________________________________________________________________________________________________________________________________




                                                          This photo shows an auditor testing inventory records for bags of corn
                                                                    soy blend (Vishakhapatnam, India, March 2002)

                                           In general, cooperating sponsors are required to ensure that adequate storage
                                           facilities will be available in the recipient country to prevent waste.2 In
                                           addition, cooperating sponsors must also maintain documents and records to
                                           accurately reflect all transactions pertaining to receipt, storage, distribution
                                           and sale of food.3

                                           The exceptions encountered relating to storage were caused in some cases by
                                           operating partners’ lack of familiarity with CRS regulations for food aid. For
                                           example, some operating partners were not aware that the CRS operating
                                           manual requires wooden floors or pallets in storage areas, and that an
                                           operating partner should notify the counterpart of any planned absence and
                                           appoint another person to manage the storeroom in his absence.

                                           The errors in records were caused by the rudimentary education of employees
                                           and difficulties with computer systems. For example, discussions with CARE
                                           officials in the field indicated that many of the Government of India’s (GOI’s)
                                           village workers, who are responsible for storing the commodities and
                                           maintaining the registers, have limited education and could benefit from

                                           2
                                             22 CFR Part 211 (USAID Regulation 11), Section 211.5, Obligations of the Cooperating
                                           Sponsor
                                           3
                                             22 CFR Part 211 (USAID Regulation 11), Section 211.10, Records and Reporting
                                           Requirements



                                                                                                                                                                                               8
__________________________________________________________________________________________________________________________________________________________________________________________________




                                           additional training. The village workers are compensated with an honorarium
                                           from GOI, which is less than a salary and does not attract the most qualified
                                           employees. In two cases an apparent CRS computer glitch caused feeding and
                                           inventory data to be reported as zero when this was not the case.

                                           The exceptions observed with regard to storage and record keeping were also
                                           caused by weaknesses in the food aid monitoring system used by
                                           USAID/India. USAID/India’s Office of Social Development manages and
                                           monitors the Title II Program. The office consists of a Director (a United
                                           States Direct Hire employee), a Deputy Director and three project specialists
                                           (all of whom are Foreign Service Nationals). Of the three project specialists,
                                           one works exclusively with CRS, and the other two positions are dedicated to
                                           CARE. Although the USAID/India food aid monitoring group consists of
                                           three positions, one position has been vacant for approximately 16 months.
                                           This leaves only one staff member to cover 100,000 CARE feeding sites. At
                                           this rate, the one staff member would have to cover about 270 sites per day in
                                           order to visit each CARE site once a year. Although it is not anticipated that
                                           all sites be visited every year, it is clear that at the very least the vacant
                                           position should be filled – especially in light of the exceptions noted in the
                                           audit. The Mission agrees, and is now in the process of filling the vacant
                                           position.

                                           Inadequate storage and record keeping can have potential—as well as very
                                           real—effects. The effect of inadequate storage is the possible waste or
                                           misappropriation of Title II commodities through pilferage, spoilage or insect
                                           infestation. The effect of inadequate record keeping is inaccurate reporting
                                           regarding commodities and recipients, including recipient eligibility for
                                           program benefits. For example, eligibility requirements for child feeding
                                           programs are based on beneficiary age, and there were numerous instances
                                           where registers included inaccurate ages of beneficiaries.


                                                         Recommendation No. 1: We recommend that USAID/India fill the
                                                         vacant staff position in USAID’s Office of Social Development.

                                                         Recommendation No. 2: We recommend that USAID/India
                                                         require action plans from CARE and Catholic Relief Services to
                                                         correct the specific exceptions and weaknesses noted during our
                                                         fieldwork (as detailed in Appendix IV).

                                                         Recommendation No. 3: We recommend that USAID/India work
                                                         with CARE to develop training programs for its village workers.




                                                                                                                                                                                               9
__________________________________________________________________________________________________________________________________________________________________________________________________




                                           Need to Resolve with the Government of
                                           India the Issue of Genetically Modified Title II Food

                                           Audit fieldwork also identified shipments of Title II commodities that were
                                           detained by Government of India health officials due to concerns about
                                           genetic modification. USAID Regulation 11 discusses the responsibilities of
                                           cooperating partners regarding importation of Title II commodities. However,
                                           the Mission and its food aid partners had not yet secured the required
                                           permission from the Government of India to import genetically modified
                                           foods. Therefore, the Government of India detained food shipments, resulting
                                           in additional program expenses for commodity storage and food outages at
                                           numerous feeding sites.

                                           Audit fieldwork identified shipments of Title II food that were detained at the
                                           Calcutta port by health officials due to a Government of India concern about
                                           genetically modified food. Some crops – including those contained in certain
                                           Title II food aid – are genetically modified to make them resistant to
                                           herbicides or pests. The Government of India has instituted regulations that
                                           have had the effect of restraining the import of genetically modified food.
                                           Although cooperating sponsors are responsible for promptly obtaining all
                                           import permits and approvals required for importing Title II commodities,
                                           they have had difficulty in obtaining timely approvals. The Mission hopes to
                                           obtain a permanent waiver from the regulations, but import approvals are
                                           currently issued only on a case-by-case basis.

                                           Title II commodities detained at port have caused logistical problems in the
                                           food distribution system and additional expense for demurrage, storage and
                                           insurance. Audit procedures identified a 700 metric ton shipment of soy oil
                                           for CRS, valued at approximately $580,000, that was detained in the Calcutta
                                           port warehouse from June 2001 to January 2002 (normally food moves
                                           through this warehouse in less than fifteen days). The Port Transit Shed
                                           Manager stated that the GOI Port Health Officer would not issue a certificate
                                           to allow the oil to pass customs, due to a concern about genetic modification.
                                           This shipment had occupied more than half the floor space in the warehouse.
                                           In addition, CRS had seven other oil shipments, totaling 1,426 metric tons,
                                           detained for approximately six months each, between April 2001 and April
                                           2002. CRS has incurred additional demurrage, storage and insurance costs
                                           totaling approximately $250,000 because of these detainments. During the
                                           audit, employees at the CRS zonal office in Calcutta indicated that
                                           approximately 70 percent of their counterparts had no soy oil because of the
                                           oil detainment.

                                           In addition, CARE had a 300 metric ton shipment of oil, valued at
                                           approximately $225,000, that was detained at the Calcutta port for the same



                                                                                                                                                                                             10
__________________________________________________________________________________________________________________________________________________________________________________________________




                                           reason from July 2001 to January 2002. CARE’s much smaller quantity of oil
                                           was “containerized” (the individual cans were packed in trailers which need
                                           not be stored in the warehouse) and therefore incurred less storage cost at the
                                           port ($6,300), but there were numerous other effects of the detention. For
                                           example, CARE feeding sites in the states of Orissa and West Bengal reported
                                           food outages in 2001 due to lack of oil.

                                           This oil shortage also reduced the availability of a locally produced food used
                                           in the CARE feeding program. CARE collaborates with the state of Uttar
                                           Pradesh to use locally grown sugar to produce a ready-to-eat product called
                                           panjeeri, which is 25 percent sugar, 10 percent soy oil, and 65 percent corn
                                           soy blend. The panjeeri production facility in Uttar Pradesh was also affected
                                           by the oil shortage, operating at a reduced capacity in 2001, with numerous
                                           shutdowns lasting a week or more. Although the production facility briefly
                                           attempted to produce panjeeri without oil, feeding centers reported that
                                           children would not eat it, so production was halted. The shortage of oil
                                           caused food outages in about 25 percent (about 3,350 sites) of the CARE
                                           feeding sites in Uttar Pradesh for about twelve weeks in 2001.

                                           However, ports other than Calcutta have not held up genetically modified
                                           food. Therefore, cooperating sponsors rerouted soy oil through the
                                           Vishakhapatnam port to avoid the problem in Calcutta, but additional costs
                                           arose from this. For example, the Vishakhapatnam port did not have adequate
                                           warehouse space to accommodate the additional oil it was receiving as a result
                                           of the diversion from Calcutta, so space in an additional warehouse had to be
                                           rented. Also, the Vishakhapatnam port is further away from some commodity
                                           destinations, so additional transportation costs may have been be incurred.

                                           Per USAID’s Regulation 11, cooperating partners are responsible for ensuring
                                           prompt approvals for entry and transit in the foreign country and for obtaining
                                           all necessary import permits, licenses and other appropriate approvals for
                                           entry and transit of commodities.4 In addition, the GOI regulates importation
                                           of genetically modified products through its Genetic Engineering Approval
                                           Committee (GEAC). However, USAID/India and its food aid partners had
                                           not yet secured permission from the GEAC to import genetically modified
                                           food commodities, although a significant portion of the food aid – especially
                                           corn soy blend—is genetically modified.

                                           Interest in genetically modified food is rather recent in India. Mission
                                           officials and management from the cooperating sponsors noted that although
                                           they have operated the Title II program in India for many years, this issue was
                                           not raised by the GOI until 2001, based on regulations issued in 1993. The
                                           news media also focused public attention on genetically modified food
                                           4
                                            22 CFR Part 211 (USAID Regulation 11), Section 211.7, Arrangements for Entry and
                                           Handling in Foreign Country



                                                                                                                                                                                             11
__________________________________________________________________________________________________________________________________________________________________________________________________




                                           brought into India in 1999 to aid victims of a cyclone, thus creating interest in
                                           the topic.

                                           In response to this recently raised issue, Mission officials and management
                                           from the cooperating sponsors explained that they have begun to deal with the
                                           problem. They are working with the Agricultural Attache at the U.S.
                                           Embassy in New Delhi to explain American policy regarding genetically
                                           modified foods to the Indian government. USAID/India, CARE, and CRS,
                                           with concurrence of USAID/Washington and the U. S. Department of
                                           Agriculture, met with the GEAC to discuss the application process for interim
                                           and permanent approvals to import genetically modified Title II commodities.
                                           CARE and CRS applied to GEAC for interim approval in August 2001, and
                                           for a longer-term approval in October 2001. GEAC has not issued interim or
                                           longer-term approvals yet, but they have approved shipments on a case-by-
                                           case basis. The first shipments approved on a case-by-case basis, detained
                                           since April 2001, were released in January 2002.




                                                         Recommendation No. 4: We recommend that USAID/India
                                                         establish an action plan to obtain all necessary approvals from the
                                                         Government of India for the importation of genetically modified
                                                         food commodities for the Public Law 480 food aid program in
                                                         India.

                                                         Recommendation No. 5: We recommend that USAID/India, in
                                                         consultation with legal counsel, the Cooperative for Assistance and
                                                         Relief Everywhere and Catholic Relief Services, determine
                                                         whether the additional storage and insurance costs totaling
                                                         approximately $256,300 associated with the detainment of
                                                         commodity shipments can be recovered from the Government of
                                                         India.




Management                                 In response to our draft audit report, USAID/India provided written comments
Comments and                               that are included (without attachments) in their entirety as Appendix II.
Our Evaluation
                                           For Recommendation No. 1, the Mission indicated it filled the vacant staff
                                           position in April 2002.

                                           Regarding Recommendation No. 4, the Mission provided an action plan to
                                           seek approvals from the Government of India for the importation of



                                                                                                                                                                                             12
__________________________________________________________________________________________________________________________________________________________________________________________________




                                           genetically modified food commodities for the Public Law 480 food aid
                                           program in India, and noted that a five-year approval for importation of
                                           vegetable oil was recently obtained.

                                           For Recommendation No. 5, the Mission provided an opinion from its
                                           Regional Legal Advisor supporting the conclusion, reached with CARE and
                                           CRS, that approximately $256,300 in storage and insurance costs from
                                           detainment of commodity shipments is not recoverable from the Government
                                           of India.

                                           Based on the above, final action has been taken on Recommendation Nos. 1, 4
                                           and 5, and these recommendations are closed upon issuance of this report.

                                           Regarding Recommendation No. 3, the Mission stated that it would work with
                                           CARE to provide training to village workers to strengthen their record
                                           keeping. A management decision has been reached for this recommendation,
                                           and it can be closed when the Mission provides evidence to USAID’s Office
                                           of Management Planning and Innovation that it has implemented its planned
                                           actions.

                                           The Mission accepted Recommendation No. 2 and stated that it would address
                                           it at a systemic and procedural level. The Mission also explained that “field
                                           realities of the Title II operating environment” created some of the exceptions
                                           noted in Appendix IV to the report. However, the Mission believed that
                                           requiring action on some of them would not be cost effective nor materially
                                           improve the program. Additionally, the Mission requested that we provide
                                           more specific information for some exceptions and modify or drop others. In
                                           instances where we agreed with the Mission’s response and the additional
                                           information it provided, we modified our report accordingly. The four areas
                                           where we disagreed with the Mission’s response are discussed below. This
                                           recommendation remains open pending agreement with the Mission.

                                           CARE Findings

                                           In response to the exception that 6 of 7 feeding sites did not maintain registers
                                           to indicate children’s birthdays, the Mission explained that many families in
                                           rural India do not know a child’s exact birth date, but only the closest month
                                           and year of birth. Although our testing found feeding sites with birth date
                                           records, we modified the report to say that the feeding sites did not indicate
                                           children’s “ages” rather than “birth dates.” In some cases, for example,
                                           instead of showing children as being older, the next year’s registers recorded
                                           children as being younger than the previous year! Since age is the criteria for
                                           determining eligibility for the feeding program, registers should accurately
                                           record a child’s age to the extent possible.




                                                                                                                                                                                             13
__________________________________________________________________________________________________________________________________________________________________________________________________




                                           In response to the exception that different children were listed under the same
                                           name in some registers, the Mission noted that many children in rural India
                                           have the same name and are identified in the registers with the name of the
                                           mother/father. While including the parents’ names was a practice at some
                                           feeding sites, it was not used at these sites. We believe that verifying the
                                           eligibility of beneficiaries can be made easier if the registers include the
                                           names of the parents, as well as the name of the child.

                                           In response to the exception that repackaged commodities did not indicate that
                                           they had been donated by the United States, the Mission expressed concern
                                           about the village women’s groups’ ability to include this information on the
                                           instructional inserts they produce. However, the instructional insert
                                           mentioned in the finding was printed locally, and in the future could include
                                           the additional comment that the food was donated by the United States. Other
                                           sites visited during the audit had signs at the feeding sites (see photo, page 6)
                                           that stated that rations distributed there were donated by the United States, and
                                           this would also be a practical method of communicating the information in the
                                           situation cited in the finding.


                                           CRS Findings

                                           Regarding the Commodity Status Report and Recipient Status Report which
                                           reported zero quantities for the Rayagada counterpart and, instead, reported
                                           that counterpart’s quantities under the Behrampur location code, the Mission
                                           noted that at the time the software was developed, the counterpart was located
                                           at Behrampur. Regarding the reported amounts of zero for 13 other
                                           counterparts, the Mission stated the actual quantities were captured at the
                                           executive level. Finally, the Mission stated that resolving the problem would
                                           entail altering functioning and effective software. We disagree that the
                                           software is functional and effective if the reports it produces do not accurately
                                           reflect activity at the local level, important information that the reports were
                                           apparently meant to capture and pass on. Updating the software to reflect the
                                           correct location codes will resolve this exception.




                                                                                                                                                                                             14
 __________________________________________________________________________________________________________________________________________________________________________________________________




                                                                                                                                                                            Appendix I


Scope and                                   Scope
Methodology
                                            The Regional Inspector General, Manila, audited USAID/India’s Public Law
                                            480 Title II activities in accordance with generally accepted government
                                            auditing standards. The purpose of the audit was to determine if
                                            USAID/India, together with its partners, monitored the food aid to help ensure
                                            that it reached the intended beneficiaries.

                                            The system of internal controls used by the Mission and its cooperating
                                            partners consists of the policies and procedures used by CARE and Catholic
                                            Relief Services (CRS), including periodic reports they prepare, and field visits
                                            made by USAID, CARE, and CRS staff to storage facilities and feeding sites.
                                            We tested these components of the system of internal controls during the
                                            audit. We considered findings from reports prepared by the CARE Internal
                                            Audit Department, and CRS and CARE India staff in designing our tests of
                                            the system of internal controls. The audit covered fiscal years 2000 and 2001
                                            and included food aid implemented by CARE and CRS. The audit did not
                                            cover Title II food aid implemented by the World Food Program. The
                                            Mission’s Title II funding was $117 million in FY 2000 and $78 million in FY
                                            2001.

                                            We began the fieldwork at the offices of USAID/India, and CARE and CRS
                                            headquarters in New Delhi, during our first trip to India, from October 15 to
                                            November 6, 2001. We made a second trip on November 28 to December 12,
                                            2001, during which we visited the CRS zonal office in Calcutta, then
                                            proceeded to the CRS counterpart and operating partner offices in the states of
                                            West Bengal and Orissa. We made the final visit to India from February 20 to
                                            March 21, 2002, during which we visited CARE state offices in Orissa, West
                                            Bengal and Uttar Pradesh. From each CARE state office we proceeded to
                                            block offices and to village feeding sites.

                                            Methodology

                                            To answer the audit objective, we began by reviewing applicable laws,
                                            regulations, USAID policy and guidance, and mission policy related to the
                                            objective. We also reviewed approved Private Voluntary Organization (PVO)
                                            program documents for the proposed controls over the movement of
                                            commodities and use of monetization proceeds and program income.

                                            We then made our first trip to India and began our fieldwork, interviewing
                                            Mission staff and management about their site visits, and reviewing their reports
                                            regarding each site visit they made during the audit period. We discussed the



                                                                                                                                                                                              15
__________________________________________________________________________________________________________________________________________________________________________________________________




                                           cooperating sponsors’ Development Activity Proposals (DAPs), multi-year
                                           plans including financial information, with Mission officials to gain an
                                           understanding of their expectations of the cooperating partners. We also
                                           reviewed documentation regarding the Mission’s latest Internal Control
                                           Assessment.

                                           We visited the CARE and CRS headquarters offices in Delhi, where we
                                           interviewed each cooperating partner’s management and staff. We discussed the
                                           organization and control systems for each program, including control over
                                           storage, physical movement, loss, monetization, and distribution of food. We
                                           also discussed design, review and approval of various distribution activities,
                                           including programs dealing with nutrition, food-for-work, education,
                                           orphanages and hospices.

                                           In addition, we reviewed and discussed the following accounting reports,
                                           which each cooperating sponsor prepares, with the staff and management
                                           responsible for their preparation. We analyzed AERs (Annual Estimates of
                                           Requirements), documents that calculate the amounts of food commodities
                                           needed. We analyzed each partner’s Annual Action Plan. We analyzed and
                                           tested each cooperating partner’s Commodity Call Forward, a document
                                           submitted to obtain additional supplies of food. We also analyzed
                                           consolidated national reports: Recipient Status Reports, which are prepared
                                           by each partner to calculate the number of recipients receiving food in each
                                           program; Commodity Status Reports, which document commodity receipts
                                           and distributions; and Commodity Loss Status Reports, which document
                                           quantities of commodities lost in transit and storage. We tested supporting
                                           documentation for these three consolidated reports during our site visits. We
                                           also analyzed CARE and CRS Annual Reports, and Reports on Monetization.


                                           During our second trip to India, we worked with CRS. We visited the CRS
                                           zonal office in Calcutta, which we had selected judgmentally, based on
                                           quantities of food used and proximity to ports, which we also wanted to visit.
                                           In addition, we reviewed the zonal portions of the consolidated national
                                           accounting reports mentioned above, and discussed the reports with zonal
                                           management and staff. We then judgmentally selected counterparts and
                                           operating partners and conducted site visits in the states of West Bengal and
                                           Orissa. We based our selections of counterparts and operating partners on
                                           types of programs at each location, when a reviewer from CRS or USAID last
                                           visited the location, the number of recipients at the location, and the location’s
                                           distance from the zonal office, where reviewers are based. We worked with
                                           the zonal office internal review department and analyzed its reports of field
                                           visits made to the counterparts and operating partners we had selected for our
                                           site visits.




                                                                                                                                                                                             16
__________________________________________________________________________________________________________________________________________________________________________________________________




                                           During the CRS site visits we tested inventories and related records at two
                                           counterpart offices in West Bengal and Orissa. We also tested support for the
                                           accounting reports mentioned previously. In addition, we inspected storage
                                           facilities. We then visited operating partners to further test support for the
                                           accounting reports, to inspect food storage facilities and test inventory
                                           records, and to observe food preparation and distribution.

                                           During our final trip to India, we worked with CARE. We visited the CARE
                                           state offices in Orissa, West Bengal and Uttar Pradesh, which we had selected
                                           judgmentally based on numbers of recipients, numbers of feeding sites, and
                                           frequency of field reviews. We worked with the CARE state offices’
                                           management and staff, reviewing and discussing the states’ portions of the
                                           consolidated national Recipient Status Reports, Commodity Status Reports,
                                           and Commodity Loss Status Reports.

                                           We had selected block offices for our site visits previously, because CARE
                                           needed time to arrange the visits with Government of India (GOI) employees.
                                           We had judgmentally selected one block office in each of the three states,
                                           considering the number of feeding sites each block manages, and the block’s
                                           distance from the state office. During the block site visits we tested records
                                           and interviewed staff and management. We tested each block’s support for
                                           the accounting reports mentioned previously. We then visited seven feeding
                                           sites to test the original documents supporting the consolidated accounting
                                           reports, to inspect food storage facilities and test inventory records, and to
                                           observe food preparation and distribution.

                                           We also visited commodity storage sites, including two port visits and five
                                           port storage facility visits, observing the unloading procedures and testing
                                           inventory records.

                                           We visited one manufacturing facility which used locally grown food to
                                           produce a ready-to-eat product from Title II food. We evaluated the facility’s
                                           records and inventory storage areas.

                                           During our visits to CRS and CARE feeding sites, we observed school
                                           feedings and take-home ration food distributions. We tested records
                                           maintained at the feeding sites pertaining to attendance and graduation
                                           policies. We also interviewed beneficiaries.




                                                                                                                                                                                             17
__________________________________________________________________________________________________________________________________________________________________________________________________




                                                                                                                                                              Appendix II


 Management
 Comments

To:                         Bruce N. Boyer, RIG/ Manila

From:                       Walter North, Director, USAID/India

Subject:                    Draft Audit Report for the Audit of USAID-Financed Public Law 480 Title Food Aid
                            Activities in India

Reference:                  Your transmittal memo dated June 19, 2002


Thank you for sharing the draft report on the Audit of USAID-Financed Public Law 480 Title-II
Food Aid Activities in India. We appreciate the findings of the audit report. They will help in
strengthening our Title II program.

We request you, however, to incorporate the following observations and modifications (elaborated at
A, B and C) in the final report you issue:


A. Based on our comments below, we request closure of Recommendations Nos. 1, 4 and 5 on
issuance of the final Report and acceptance of the Mission’s management decision on
Recommendation No. 3.

Recommendation No. 1: We recommend that USAID/India fill the vacant staff position in USAID’s
Office of Social Development.

This position was filled by the Mission on April 7, 2002 by appointing V. Ramesh Babu, Project
Management Specialist in the Office of Social Development.

Recommendation No. 2: (See separate section)

Recommendation No. 3: We recommend that USAID/India work with Cooperative for Assistance
and Relief Everywhere to develop training programs for its village workers.

Per CARE plans, during FY2002 over 26,000 government and Non-Government Organization
(NGO) functionaries, of which about 9,800 are village level functionaries, will be trained. The
Mission has taken a decision to strengthen the village workers’ capacity by working with
CARE/India to ensure that the trainings planned for village level workers incorporate elements that
will specifically strengthen their record-keeping. Systematic capacity building workshops are being



                                                                                                                                                                                             18
__________________________________________________________________________________________________________________________________________________________________________________________________




                                                                                                                                                              Appendix II

planned for CARE’s Government Partnerships Officers (GPO) & Monitoring Officers (MO), to
clarify their roles including aspects of commodity management and monitoring. The GPO’s and
MO’s are the two members of Integrated Nutrition and Health Project District teams responsible to
respectively program and monitor the commodity from the District to the Anganwadi Center (AWC)
level. We expect these trainings to be complete by March 2003.

Recommendation No. 4: We recommend that USAID/India establish an action plan to obtain all
necessary approvals from the Government of India for the importation of genetically modified food
commodities for the Public Law 480 food aid program in India

Mission, CARE and CRS have undertaken the necessary steps (see Attachment I for detailed Action
Plan) to seek approvals from the GOI for import of genetically modified Title II commodities. GOI
has recently approved the import of refined vegetable oil for five years. With respect to other
commodities, USAID, CARE and CRS will continue to work with relevant authorities in GOI. A
final decision rests with the GOI.

Recommendation No. 5: We recommend that USAID/India, in consultation with legal counsel, the
Cooperative for Assistance and Relief Everywhere and Catholic Relief Services, determine whether
the additional storage and insurance costs totaling approximately $ 256,300 associated with the
detainment of commodity shipments can be recovered from the Government of India.

The Mission, in consultation with the PVOs and the Regional Legal Advisor has determined that the
additional storage and insurance costs mentioned above are not recoverable from the GOI. A copy of
the RLA’s concurrence is attached. (Attachment II) Moreover, CRS’s request to Kolkotta Port Trust
(KPT) for refund of the demurrage costs has not been accepted.


B. We also request you to delete the following sentence from Recommendation No. 4 on page 12
(line 5 from below), which could convey a faulty impression:

‘Although the long-term effects of genetic modification on the consumer and the environment are
unknown, the Government of India has instituted regulations that have had the effect of restraining
the import of genetically modified food.’

The current wording may reflect an unintentional editing slip. Maybe the intention of this sentence
was to suggest that there was no good reason for the GOI to restrain the imports. However, the way
it reads now, someone might not infer that. Instead they might take this as an official statement by
the USG that we don't know what the long-term health and safety implications of food with
Genetically Modified Organisms (GMO) are for humans and for the environment and won't anytime
soon.

After a full review, these foods have been found to be safe for human consumption by the USG.
Moreover, since they have been released for human consumption in the United States, there have



                                                                                                                                                                                             19
__________________________________________________________________________________________________________________________________________________________________________________________________




                                                                                                                                                              Appendix II

been no incidents of health problems which they occasioned. The current formulation should be
clarified, perhaps saying something like the following:

‘Recently, it became clear that the GOI had instituted regulations requiring a scientific review before
commodities with GMOs could be imported into India. Pending the outcome of a long standing GOI
review of the safety of GMO soy oil & corn, cooperating partners have encountered difficulties in
importing such products into India.’


C. Recommendation No 2: ‘We recommend that USAID/India ensure that the Cooperative for
Assistance and Relief Everywhere and Catholic Relief Services correct the specific exceptions and
weaknesses noted during our fieldwork (as detailed in Appendix IV).’ We accept this
Recommendation and shall address it at a systemic and procedural level. However, we request
altering and dropping certain exceptions reported (Annexure IV) as instances to support this
recommendation.

Some of those instances reflect field realities of the Title II operating environment over which
partners have little control. Reporting such as exceptions would mandate our actions on these issues.
These actions would be neither cost effective nor materially improve the impact of the program. The
Integrated Child Development Services (ICDS) infrastructure (including village level Anganwadi
Centers) and functionaries are provided and funded by the GOI. ICDS staff are not directly
reporting to either the Mission or CARE. This severely limits abilities to address and influence
some of the conditions reported in the exceptions section.

More important, the exceptions are not material in terms of affecting program implementation and
monitoring. For instance, it may be a fact that some children will come to a center for food but not to
attend class. But this does not become a finding relating to the efficacy of our food distribution.
Similarly, in an illiterate setting, it is remarkable that reasonable records indicating ages of children
availing of the feeding are there. Perfect documentation is desirable but less than perfect
documentation is not a finding since this does not materially compromise the program’s ability to
reach the intended beneficiaries.

To be specific we request you to:

a. Drop exceptions reported in Appendix IV at Bullet 3 (CARE/page 21), Bullet 4
(CARE/page 21), Bullet 5 (CARE/page 22) and lines 1 to 9 of Bullet 2 (CRS/page 22), and;

b. Elaborate and be more specific on exceptions reported at Bullet 1 (CARE/page 21,
Appendix IV), and, Bullet 2 (CRS/ page 23, lines 3 to 5, Appendix IV).

The detailed discussion follows below:




                                                                                                                                                                                             20
__________________________________________________________________________________________________________________________________________________________________________________________________




                                                                                                                                                              Appendix II

CARE (Appendix IV)

Bullet 1, line 4 to 7 at Appendix IV, page 21, states that ‘one of three state offices visited did
not provide loss reports.’ It is not clear to the Mission and CARE as to which specific report was
not provided. Are the auditors trying to state that the system of loss reporting exists but is not
actually being implemented properly at the CARE/UP office? Regrettably there was no exit meeting
at site or later in which the specific inadequacy or discrepancy was explained and relevant papers
shared with USAID or CARE. Since this assertion disables us from resolving this finding, we
suggest that this specific finding be elaborated in the final report, so as to clearly specify
corrective action required.

Bullet 3, page 21, states that ‘six of the seven CARE feeding sites we visited did not adequately
maintain attendance records by accurately counting the number of beneficiaries that attend
classes and receive Title II rations’: This finding suggests that children received food even though
they may not have attended classes. This may be
true, but this is not a valid finding because the GOI’s ICDS program does not make attending
classes a pre-condition for receiving food. A GOI directive dated Jan 11, 1990 states “children in
the age group of 6 months to 6 years approaching an Anganwadi Center (AWC) for supplementary
nutrition be provided such”. It may be a desirable linkage to make food an incentive for education
but supplementary food cannot be denied to children who do not regularly attend pre-school classes,
but may arrive for receiving the food supplement. Since the CARE, Title-II program supports the
Government of India’s (GOI) ICDS, the relevant GOI guidelines need to be followed. We, therefore,
request deletion of the above exception. A copy of the above mentioned GOI circular along with the
cover page of the source document is attached (Attachment III).

Bullet 4, page 21: We respond to this in three parts, and request you to drop this entire bullet in
view of our explanation:

1. “6 of 7 CARE feeding sites we visited did not maintain registers to indicate children’s
birthdays, information that is essential for evaluating eligibility for feeding programs”.

In rural India, illiterate mothers often do not know the date of birth of their children. Generally a
local events calendar is prepared for 5-6 years indicating the dates of all important festivals, events
etc in the ICDS project area, to relate and ascertain the child’s closest birth month and year. To
support this explanation, relevant text from the ICDS manual is attached (Attachment IV).

2. “We noted that different children are listed under the same names in some registers,
children are listed with inaccurate ages in some registers.”

In the rural Indian context there are many children with the same name in a village which is
generally popular (the name of a Goddess/God or some warrior or elderly persons of the family) and
are identified in the registers with the name of mother/father. The parents’ names are also written in
the registers. Also the practice of calling the child with pet names is very common and a formal



                                                                                                                                                                                             21
__________________________________________________________________________________________________________________________________________________________________________________________________




                                                                                                                                                              Appendix II

name is given to the child only when s/he gets enrolled in the school. Therefore an overlap of
different children with one name can not be avoided. We request that you please drop this
exception.

3. ‘Some registers were unavailable’, Please provide the name of the specific registers not
available, or else drop this sentence from the finding.

Bullet 5, page 22: This point has also been taken up in 2 parts as under:

1. “3 of 7 feeding centers we visited used storage areas that were not secure in that more than
one person had access keys. The CARE Operating Manual’s Chapter 7 discusses storage and
handling, and explains that the person responsible for the commodities should be the only
person with a key to the storage facility.”

The above extract is quoted from the ‘Food Resources Manual’ issued by CARE, USA. This Manual
sets forth standards and guidance, but it is meant to establish worldwide norms and should not in all
particulars take precedence over alternative acceptable program operation practices of the GOI for
commodity accountability. At each of the AWCs there are two persons (i.e. the Anganwadi Worker
(AWW) and the Helper) who have been appointed to ensure management of the AWC functions. As
per GOI guidelines (abstract at Attachment V) the Helper is responsible to handle the AWC
functions, including feeding program management, in the absence of the AWW. Thus the keys can
be kept by more than one person.

The ICDS program is supposed to be a community managed program and the GOI encourages
community participation in its implementation and functioning. Please see “Attachment VI” with
relevant text from the ICDS Manual, highlighting the role of local leadership, (i.e., local
communities, Mahila Mandals [women’s groups]) in ICDS planning implementing and monitoring.
In the three cases pointed out in the audit, the commodity was stored in the home of the village
headman/local government representative or a respected member of the community. This is usual
practice to ensure the security of the commodity when AWCs are considered insecure. Since the
village houses are small and owner’s cannot dedicate one room exclusively to store Title-II
commodities, some personal effects are also stored along with the food commodity. Sharing of the
key by the house owners’, therefore, cannot be avoided. This is a field reality which is acceptable to
the Mission, even though this practice may not be up to international standards/norms. We,
therefore, request that this exception be dropped.

2. 1 of 2 feeding sites we visited that repackaged take-home rations included an instructional
   insert in the local language that did not mention that the food was donated by the United
   States. Regulation 11, Section 211.6 (c) requires that repackaged commodities be labeled
   with the USAID emblem and include a statement in the local language saying the food was
   donated by the people of the United States.




                                                                                                                                                                                             22
__________________________________________________________________________________________________________________________________________________________________________________________________




                                                                                                                                                              Appendix II

The ‘repackaging’ referred to is actually a form of distribution of Title-II commodities innovatively
developed by the local women’s group to help the AWW in distributing this fortnightly Take Home
Rations to mothers and children. Instead of weighing/measuring rations on the day of the
distribution, members of the women’s group pre-weigh the ration and put it in small polythene bags
which they buy from their own funds. The time saved on the Nutrition and Health day on account of
pre-weighing commodities is used for health activities and nutrition education with the Auxilliary
Nurse Midwife (ANM), who is able to visit the village only once a month.

It is not possible to print the source of supply on these carry bags in rural Indian villages due to the
lack of facilities. Also the local women’s groups do not have funds to manage the additional
expenses required to take up the printing work as suggested. Keeping the feasibility and viability of
the printing at the village level in mind and in view of the fact that this form of distribution is not
‘repackaging’ and is not in violation of the quoted Reg II section, this exception should be dropped.
Failing this, the pre-weighing for distribution might have to be stopped, meaning less time for
village women with the health functionary, who has limited time in each village.

CRS (Appendix IV)

Bullet 2, page 22/23:

1. “Reviews of CRS Recipient Status Reports and Commodity Status Reports and their
supporting documents identified errors in accounting.”

CRS explains that the CSR & RSR report tested by the audit team was for the Rayagada counterpart.
The Rayagada counterpart, at the time CRS’ CSR-RSR package was developed, was located at
Behrampore. Although the same counterpart is now located at Rayagada, it is identified by the
package under the code for Behrampur. Rayagada data listed under the Behrampur code was also
shown to the auditors by CRS.

Under two counterparts (called Executive Counterparts) – the Dimapur and Shillong counterparts,
there are 13 extension counterparts whose data is captured under the Executive Counterparts. This is
as per CRS food accounting system. Therefore, the 13 extension counterparts were showing zero
information.

If this observation is reported as a finding, resolving it would entail altering functional and effective
software. We therefore request you to delete this exception.

2. “1 of the 2 Operating Partners visited by the Auditors that had program income did not
maintain a log of proceeds from sales of empty containers.”

According to CRS, the auditors visited one Safe Motherhood and Child Survival (SMCS) Operating
Partner (OP) and another Other Child Feeding (OCF) OP at Rayagada. One of the two visited,
(OCF) in Gunupur under Rayagada counterpart, does not collect any contributions or sell their



                                                                                                                                                                                             23
__________________________________________________________________________________________________________________________________________________________________________________________________




                                                                                                                                                              Appendix II

empties to generate funds and therefore they do not maintain any accounts for program generated
funds. In view of the above response from CRS, the finding needs to specify which of the two
Partners is being referred to.


Attachments : as above




                                                                                                                                                                                             24
__________________________________________________________________________________________________________________________________________________________________________________________________




                                                                                                                                                              Appendix III



                                              FOOD DISTRIBUTION CHAIN FLOW CHART
                                                 FOR TITLE II FOOD AID IN INDIA


                                                                                            USAID/India
                                                                                             1. Soy Oil
                                                                                          2. Bulgur Wheat
                                                                                         3. Corn Soy Blend




                           CARE/Delhi                                             Seaport Warehouses                                               CRS/Delhi
                        115,000 Metric Tons                                       169,000 Metric Tons                                          54,000 Metric Tons



                       8 State Offices
                                                                                                                                                          4 Zonal
                     (With Government of
                                                                                                                                                          Offices
                            India)



                                                                                                                                                   70 Counterpart
                              116 District
                                                                                                                                                       Offices
                                Offices




                       748 Block Offices                                                                                                            Operating
                             with                                                                                                                   Partners’
                          Warehouses                                                                                                              3,000 Feeding
                                                                                                                                                     Centers
                                                                                                                                               (0.8 million people)

                           100,000
                      Feeding Centers
                     (7.2 million people)




                                                                                                                                                                                             25
__________________________________________________________________________________________________________________________________________________________________________________________________




                                                                                                                                                              Appendix IV


Exceptions                                               CARE
Encountered
During Site                                              ¾ One of the three state offices visited was unable to provide a
                                                         complete list of its feeding sites. Regulation 11, Section 211.10(a)
Visits                                                   requires Cooperating Sponsors to maintain records on distribution of
                                                         commodities (e.g., distribution sites). One of three state offices visited
                                                         did not provide its loss reports that were used to prepare a national
                                                         consolidated loss report. Regulation 11, Section 211.10(b) requires
                                                         Cooperating Sponsors to prepare reports about the distribution of
                                                         commodities (e.g., Loss Reports). A review of inventory records
                                                         maintained at the only manufacturing facility visited, in Uttar Pradesh,
                                                         indicated inventory write-offs were made without supporting
                                                         documents. Regulation 11, Section 211.6(a)(1) requires commercial
                                                         facilities that process commodities to fully account for all commodities
                                                         and maintain adequate records.

                                                         ¾ Two of the three state offices visited provided us with worksheets
                                                         for preparing their Recipient Status Reports. Attempts to trace the
                                                         information on those reports to supporting documents in the block
                                                         offices identified 38 of 360 entries on the West Bengal worksheet that
                                                         did not agree to supporting documentation prepared at the feeding
                                                         sites. 80 of 180 entries on the Uttar Pradesh worksheet did not agree
                                                         to the supporting documentation. Regulation 11, Section 211.10(b)
                                                         requires Cooperating Sponsors to report the distribution of
                                                         commodities (e.g., Recipient Status Reports).

                                                         ¾ Six of seven CARE feeding sites visited did not maintain registers
                                                         accurately indicating children’s ages, information that is essential for
                                                         evaluating eligibility for feeding programs. In addition, different
                                                         children are listed under the same names in some registers. At two
                                                         feeding sites, some registers were unavailable. The feeding site at
                                                         Hirazole was unable to provide any registers (e.g., children, pregnant
                                                         women, lactating mothers, census) maintained by the previous village
                                                         worker. The feeding site at Ganja Sidhartur was unable to provide the
                                                         register of 3-6 year olds for the months of May 1999 to May 2000, and
                                                         the current registers for pregnant and lactating women were
                                                         unavailable. Regulation 11, Section 211.5(f) requires cooperating
                                                         sponsors to determine the eligibility of recipients.




                                                                                                                                                                                             26
__________________________________________________________________________________________________________________________________________________________________________________________________




                                                         ¾ One of two feeding sites visited that repackaged take-home rations
                                                         included an instructional insert in the local language that did not
                                                         mention that the food was donated by the United States. Regulation
                                                         11, Section 211.6(c) states that repackaged commodities should be
                                                         labeled with the USAID emblem and include a statement in the local
                                                         language saying the food was donated by the people of the United
                                                         States.

                                                         ¾ Observations of food preparation at the seven feeding sites
                                                         identified one site that used the wrong amount of oil (400 ml rather
                                                         than the 488 ml calculated for that day’s ration) in preparing that day’s
                                                         food. Ration quantities are defined in the CARE Development
                                                         Activity Proposal. One in seven of the feeding sites used oil that had
                                                         been contaminated with ants. The CARE Operating Manual’s Chapter
                                                         7 discusses storage and handling, and offers advice on how to deal
                                                         with insect infestations. In addition, Regulation 11, Section 211.8
                                                         discusses commodities unfit for human consumption.



                                                         CRS

                                                         ¾ One of four CRS storage facilities visited had damage: a broken
                                                         window that potentially exposed commodities to rain and theft. The
                                                         CRS Counterpart Manual discusses handling and storage procedures
                                                         for commodities, and requires that storage facilities be constructed to
                                                         avoid rain damage and losses by pilferage. One of the four storage
                                                         facilities had bags of bulgur wheat stored on plastic sheeting on a dirt
                                                         floor. The CRS Counterpart Manual requires floors made of brick or
                                                         concrete, and that bulgur wheat be stored on wooden pallets.

                                                         ¾ Reviews of the CRS Recipient Status Reports and Commodity
                                                         Status Reports and their supporting documents identified errors in
                                                         accounting. Testing of one zonal Commodity Status Report and one
                                                         zonal Recipient Status Report indicated that both reports incorrectly
                                                         listed all information as zero for one of the two counterpart locations
                                                         tested. The zonal Commodity Status Report listed a total of 13 of the
                                                         36 counterparts with all information as zero. The zonal Recipient
                                                         Status Report listed a total of 13 of the 35 counterparts with all
                                                         information as zero. The “zero” reporting resulted from a computer
                                                         glitch at the Zonal Office. The national consolidating Recipient Status
                                                         Report contained information about Food-For-Work recipients that did
                                                         not agree with the zonal Recipient Status Report. Testing of two
                                                         operating partners that had program income, Pragati in Rayagada, and
                                                         Hayden Hall in Darjeeling, indicated the operating partner in Pragati



                                                                                                                                                                                             27
__________________________________________________________________________________________________________________________________________________________________________________________________




                                                         did not maintain a log of proceeds from sales of empty containers.
                                                         Regulation 11, Section 211.10(b) requires Cooperating Sponsors to
                                                         report the distribution of commodities (e.g., Commodity Status
                                                         Reports and Recipient Status Reports) and generation of program
                                                         income (e.g., sales proceeds).

                                                         ¾ At one of three CRS feeding sites visited, the individual
                                                         responsible for storage of commodities was away from the site for two
                                                         weeks and had not left the keys or records. The CRS Counterpart
                                                         Manual discusses procedures for leaves of absence, and also requires
                                                         that feeding sites and records be available for review by the
                                                         counterpart and USAID.




                                                                                                                                                                            Appendix




                                                                                                                                                                                             28
__________________________________________________________________________________________________________________________________________________________________________________________________




                                                                                                                                                              Appendix V


 List of                                   AER – Annual Estimate of Requirements
 Acronyms
 Used in the                               CARE – Cooperative for Assistance and Relief Everywhere
 Report                                    CRS – Catholic Relief Services

                                           DAP – Development Activity Proposal

                                           FCI – Food Corporation of India

                                           GEAC – Genetic Engineering Approval Committee

                                           GOI – Government of India

                                           ICDS – Integrated Child Development Services

                                           OSD – USAID/India’s Office of Social Development

                                           PVO – Private Voluntary Organization




                                                                                                                                                                                             29
__________________________________________________________________________________________________________________________________________________________________________________________________




                                                                                                                                                              Appendix VI

         CARE                              The Title II program in India is being implemented by two major cooperating
          and                              sponsors: the Cooperative for Assistance and Relief Everywhere (CARE) and
                                           Catholic Relief Services (CRS), two U. S. Private Voluntary Organizations. It is
          CRS
                                           the largest Title II program in the world, and distributes nearly all its food
                                           directly to beneficiaries rather than selling (“monetizing”) it to raise funds. The
                                           Government of India also makes a major contribution to the Title II program by
                                           funding all services and personnel of its Integrated Child Development Services
                                           (ICDS) program and the infrastructure for the CARE program, as well as in-
                                           country transportation and storage costs for all Title II commodities.

                                           CARE oversees the supplementary nutrition component within the Government
                                           of India’s ICDS program in selected areas of eight states (see map below). This
                                           program uses Title II rations to enhance participation in health programs at
                                           village centers.

                                           For administrative purposes, CARE’s program is divided into states, districts,
                                           “blocks” and feeding centers. The program has about 100,000 feeding centers
                                           targeting about 7 million people including pregnant women, nursing mothers and
                                           children between the ages of six months and six years.

                                           For an illustration of the eight states of India in which CARE manages feeding
                                           centers, see the map on the next page.




                                                                                                                                                                                             30
__________________________________________________________________________________________________________________________________________________________________________________________________




                                                                                                                           CARE Operating Areas
                                                                                                                                 (States)




                                                                                          
                                                                                                                    
                                                                                                                                 
                                                                                                                                
                                         (1)    Andhra Pradesh
                                         (2)    Madhya Pradesh
                                         (3)    West Bengal
                                         (4)    Uttar Pradesh                                          
                                         (5)    Rajasthan
                                         (6)    Orissa
                                         (7)    Jharkhand
                                         (8)    Chhattisgarh




                                                         This map illustrates the states of India in which CARE manages feeding
                                                         centers. CARE’s organization includes eight state offices and manages
                                                         about 100,000 feeding centers.



                                           Although CARE works with the Government of India, CRS works through
                                           private partners and social service organizations. The CRS program is divided
                                           into four regional zones (see map below) and is implemented through
                                           counterpart organizations. These counterparts in turn distribute food to
                                           operating partners who use the food in four types of programs: health, food-for-
                                           work, education programs, and humanitarian activities in orphanages and
                                           hospices. The CRS program has about 3,000 feeding centers targeting about
                                           800,000 people (Appendix III summarizes how food aid is distributed in India
                                           by CARE and CRS.)




                                                                                                                                                                                             31
__________________________________________________________________________________________________________________________________________________________________________________________________




                                                                                                                                  CRS Operating Areas
                                                                                                                                       (States)


                                                                                                      N2               North Zone States

                                                                                                                       (N1) Uttar Pradesh
                                                                                                                       (N2) Himachal Pradesh

                                                                                                                                                               E5
                              West Zone States                                         W6                     N1
                                                                                                                                                       E6            E3
                                                                                                                                   E4
                              (W1) Maharashtra                                                                                                                    E7
                              (W2) Chatisgarh                               W3 W5                     W4
                              (W3) Gujarat                                                                                                 E1
                              (W4) Madhya Pradesh                                                                   W2                              East Zone States
                              (W5) Nagar Haveli                                                                              E2
                              (W6) Rajasthan                                              W1                                                        (E1)   West Bengal
                                                                                                                                                    (E2)   Orissa
                                                                                                                                                    (E3)   Nagaland
                                                                                                                                                    (E4)   Bihar
                                                                                                         S1                                         (E5)   Asam
                                                                                                                                                    (E6)   Meghalaya
                                                                                                                                                    (E7)   Manipur



                                                                                                              South Zone States

                                                                                                              (S1) Andhra Pradesh




                                                         This map illustrates the states of India in which Catholic Relief Services
                                                         manages feeding centers, grouped by region. CRS has divided the
                                                         country into north, south, east and west regions, and operates about 3,000
                                                         feeding centers.




                                                                                                                                                                                             32
__________________________________________________________________________________________________________________________________________________________________________________________________




                                                                                                                                                              Appendix VII




 Recognition                               RIG/Manila appreciates the cooperation and assistance of the Mission’s Office
                                           of Social Development (OSD) during the audit. Special thanks go to Ms. Ashi
                                           Kathuria, Ms. Mamta Varma, Mr. S. Chandrasekar, and to OSD Director Ms.
                                           Carla Barbiero. We are also grateful to CRS India’s Will Lynch and CARE
                                           India’s Dr. A. K. Sen, Mr. Mohan Singh, and Mr. Surojit Chatterji and their
                                           employees for their assistance during our site visits.




                                                                                                                                                                                             33
